f
No. 20-1851

FILED

UNITED STATES COURT OF APPEALS
FQR THE SIXTH CIRCUIT

Mar 25, 2021
DEBORAH S. HUNT, Clerk

DAVIN GRIFFIN,

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant
v.
J.A. TERRIS, WARDEN
Respondent-Appellee.

ORDER

BEFORE: SUTTON, COOK, and READIER, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

if 4

Deborah S. Hunt, Clerk

\

(2 of 5)

NOT RECOMMENDED FOR PUBLICATION
No. 20-1851
.

UNITED STATES COURT OF APPEALS •.
FOR THE SIXTH CIRCUIT >

FILED

DAVIN GRIFFIN,
Petitioner-Appellant,
v.
J.A. TERRIS, Warden,
Respondent-Appellee.

Jan 22, 2021
DEBORAH S. HUNT, Clerk

)
)

y
)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)

ORDER

Before: SUTTON, COOK, and READLER, Circuit Judges.

Davin Griffin, a pro se. federal prisoner, appeals a district court judgment denying his
petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2241. He also moves for leave
to proceed in forma pauperis. This case has been referred to a panel of the Court that, upon
examination, unanimously agrees that oral argument is not needed. See Fed. R. APP- P- 34(a).
In 2013, Griffin pleaded guilty to possession with intent to distribute 28 grams or more of
cocaine in violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(B). He was classified as a career offender
pursuant to U.S.S.G. § 4B1.1 based on having at least two prior felony convictions for a crime of
violence—namely, two first-degree burglary convictions and a sexual abuse conviction in Iowa—
and was sentenced to 188 months in prison. His conviction and sentence were affirmed on direct
appeal. United States v. Griffin, 583 F. App’x 576 (8th Cir. 2014) (per curiam).
In 2015, Griffin filed a motion to vacate, correct, or set aside his sentence pursuant to
28 U.S.C. § 2255, which was denied. The Eighth Circuit denied a certificate of appealability,
Griffin v. United States, No. 19-1088 (8th Cir. May 13, 2019) (order), and later denied Griffin’s

!

(3 of 5)
No. 20-1851

-2motion for authorization to file a second or successive motion to vacate, Griffin v. United States,
No. 19-2522 (8th Cir. Oct. 28, 2019) (order).
Griffin then filed the present § 2241 petition, claiming that he no longer qualifies as a career
offender in view of the Supreme Court’s decisions in (1) Johnson v. United States, 576 U.S. 591,
606 (2015), which held that the residual clause of the Armed Career Criminal Act (“ACCA”), 18
U.S.C. § 924(e)(2)(B)(ii), is unconstitutionally vague, (2)Mathisv. United States, 136 S. Ct. 2243,
2251-54 (2016), which held that, again in determining whether a prior conviction qualifies as a
predicate offense under the ACCA, sentencing courts should look to the statutory elements of the
offense rather than alternative factual means of committing an element, (3) United States v. Davis,
139 S. Ct. 2319, 2336 (2019), which held that the residual clause definition of “crime of violence”
in 18 U.S.C. § 924(c)(3)(B) is unconstitutionally vague, and (4) Sessions v. Dimaya, 138 S. Ct.
1204, 1210 (2018), which held that the residual clause definition of “crime of violence” in 18
U.S.C. § 16(b) is unconstitutionally vague. According to Griffin, his Iowa burglary convictions,
see Iowa Code § 713.3, do not qualify as “crimes of violence” under these cases.
The district court denied the petition, reasoning that Griffin presented “no binding adverse
precedent that prevented him from raising his claims either on direct appeal or in his § 2255
petition,” Griffin v. Terris, No. 2:19-CV-13469, 2020 WL 4430886, at *2 (E.D. Mich. July 31,
2020), that he appears to have raised his claims via an ineffective-assistance-of-counsel-claim in
his § 2255 motion, that Johnson was available to him when he filed his § 2255 motion, that his
argument regarding the categorical approach (i.e., his Mathis argument) was available during his
direct appeal, that Davis and Dimaya are inapplicable to his case, and that his claims are foreclosed
by Beckles v. United States, 137 S. Ct. 886, 897 (2017), which held that Johnson's holding does
not apply to the advisory sentencing guidelines, Griffin, 2020 WL 4430886, at *.2—3.
We review de novo the denial of a petition for a writ of habeas corpus under § 2241.
Wooten v. Cauley, 677 F.3d 303, 306 (6th Cir. 2012). In general, an attack on the validity of a
conviction or sentence must be brought under § 2255 as opposed to § 2241, under which a
petitioner may ordinarily challenge only the execution of his sentence. United States v. Peterman,

(4 of 5)
No. 20-1851

-3249 F.3d 458, 461 (6th Cir. 2001). But a federal prisoner may use §2241 to challenge his
conviction or sentence “if § 2255 is ‘inadequate or ineffective to test the legality of his detention.”5
Id. (quoting 28 U.S.C. § 2255(e) (the “savings clause”)).
Historically, the savings clause had “only been applied to claims of actual innocence based
upon Supreme Court decisions announcing new rules of statutory construction unavailable for
attack under § 2255.” Reminsky v. United States523 F, App’x 327, 328-29 (6th Cir. 2013) (per
curiam) (citing Martin v. Perez, 319 F.3d 799, 804-05 (6th Cir. 2003); Peterman, 249 F.3d at 461—
62). In Hill v. Masters, 836 F.3d 591 (6th Cir. 2016), however, we created a very limited exception
under which federal prisoners may challenge their sentences with a § 2241 petition. When seeking
to petition under § 2241 based on a misapplied sentence, the petitioner must show that there is “(1)
a case of statutory interpretation, (2) that is retroactive and could not have been invoked in the
initial § 2255 motion, and (3) that the misapplied sentence presents an error sufficiently grave to
be deemed a miscarriage of justice or a fundamental defect.” Hill, 836 F.3d at 595.
Whether challenging his conviction or his sentence, a prisoner seeking to prove the
inadequacy of § 2255 must “show that binding adverse precedent (or some greater obstacle) left
him with ‘no reasonable opportunity’ to make his argument any earlier, ‘either when he was
convicted and appealed or later when he filed a motion for postconviction relief under section
2255.”’ Wright v. Spaulding, 939 F.3d 695, 703 (6th Cir. 2019) (quoting In re Davenport, 147
F.3d 605, 610 (7th Cir. 1998)). He must establish that his argument is now available only because
of a “Supreme Court decision that adopts a new interpretation of a statute after the completion of
the initial § 2255 proceedings.” Hueso v. Barnhart, 948 F.3d 324, 333 (6th Cir.), cert, denied,
_S. Ct.

2020 WL 6829068 (U.S. Nov. 23, 2020).

Griffin cannot make this showing. First, Griffin could have invoked Johnson during his
§ 2255 proceedings because that case was decided before he filed his § 2255 motion. In any event,
neither Johnson nor the subsequent case law that applied its reasoning to other statutes—Davis
and Dimaya-

an assist Griffin because he was sentenced under the advisory guidelines. See

Beckles, 137 S. Ct. at 897.

(5 of 5)
No. 20-1851

-4Second, although Mathis had not yet been decided when Griffin filed his motion to vacate,
the theory behind Griffin’s Mathis argument—that his prior burglary convictions are not “crimes
of violence” under the proper application of the “categorical approach”—dates back to Taylor v.
United States, 495 U.S. 575 (1990). See Wright, 939 F.3d at 705-06. The legal basis for Griffin’s
Mathis argument therefore was available to him at the time he was sentenced, on direct appeal,
and when he filed his original motion to vacate.. Griffin, in other words, had at least three prior
opportunities to raise his “so-called ‘Mathis claim,’ free of any procedural impediments.” Id. at
706.
In short, Griffin has not shown that “binding adverse precedent (or some greater obstacle)

i

left him with ‘no reasonable opportunity’” to raise his present claims earlier. Id. at 703 (quoting
Davenport, 147 F.3d at 610).
Accordingly, we GRANT the motion to proceed in forma pauperis and AFFIRM the
district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

i

Case 2:19-cv-13469-DPH-RSW ECF No. 6 filed 07/31/20

PagelD.43

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
DAVIN GRIFFIN,

Petitioner,

Case-No. 2:19-cv-13469
Hon. Denise Page Hood

v.

J.A. TERRIS,
Respondent.
JUDGMENT
IT IS ORDERED that the petition for writ of habeas corpus is DENIED.
IT IS FURTHER ORDERED that permission to appeal in forma pauperis is
DENIED.
Dated at Detroit, Michigan, this 31st, day of July, 2020.
DAVID J. WEAVER
CLERK OF THE
COURT APPROVED:
BY: s/LaShawn Saulsberrv
DEPUTY CLERK
s/Denise Page Hood______
Denise Page Hood
United States District Court

-

Case 2:19-cv-13469-DPH-RSW ECF No. 5 filed 07/31/20

PagelD.36

Page 1 of 7

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
DAVIN GRIFFIN,

Petitioner,

Case No. 2:19-cv-13469
Hon. Denise Page Hood

v.

J.A. TERRIS,
Respondent.
i .

OPINION AND ORDER SUMMARILY DENYING PETITION FOR A
WRIT OF HABEAS CORPUS AND DENYING LEAVE TO APPEAL IN
FORMA PAUPERIS
Federal prisoner Davin Griffin (“Petitioner”), confined at the Federal
Correctional Institution in Milan, Michigan, filed this pro se petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2241. Petitioner filed a letter seeking a ruling
on his petition. He cites the COVID-19 pandemic claiming he has underlying health
conditions. Neither this petition nor the letter seeks compassionate release under 18
U.S.C. § 3582. However, the Court notes that it cannot review such a claim because
a prisoner must “fully exhaust[ ] all administrative rights” or else must wait for 30
days after the warden's “receipt of [their] request.” 18 U.S.C. § 3582(c)(1)(A);
United States v. Alain, 960 F.3d 831, 833 (6th Cir. 2020).

Case 2:19-cv-13469-DPH-RSW ECF No. 5 filed 07/31/20

Page!D.37

Page 2 of 7

In 2013, Petitioner was convicted in the Northern District of Iowa pursuant to
his guilty plea of possession with intent to distribute 28 grams or more of cocaine in
violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(B). On April 10, 2014, the Court
sentenced Petitioner as a career offender 188 months’ imprisonment, 5 years of
supervised release, and a $100 special assessment. See United States v. Griffin,
Northern District of Iowa No. 13-cr-02037. At sentencing Petitioner did not contest
his designation as a career offender. M ECF No.33, Page ID.4-5. In the present
action, Petitioner argues that he was erroneously sentenced as a career offender
under U.S.S.G. § 4B 1.2(a)(2) because his prior Iowa burglary convictions should
not have qualified as crimes of violence. For the reasons set forth below, the Court
will summarily deny the petition and deny leave to appeal in forma pauperis.
I. Background
As indicated above, Petitioner did not contest the application of the career
offender provisions of the advisory guidelines at his sentencing hearing. Rather, he
argued in favor of a downward variance pursuant to the 18 U.S.C. § 3553(a) factors
Id., ECF No.33, Page ID.10-14. The Court considered his arguments and recognized
its authority to vary downward but declined to do so. Id. at 15-18. The court stated
it would, however, take Petitioner’s arguments into consideration when deciding
where in the advisory range to sentence him, and it eventually sentenced Petitioner
to the very bottom of the recommended range of 188 to 235 months. Id. at 16.
2

Case 2:19-cv-13469-DPH-RSW ECF No. 5 filed 07/31/20

PagelD.38

Page 3 of 7

Petitioner filed a direct appeal, asserting two claims: (1) his sentence was
substantively unreasonable and (2) the district court did not adequately consider his
arguments for a variance. The Eighth Circuit affirmed. United States v. Griffin, 583
F. App’x 576 (8th Cir. 2014).
Petitioner subsequently filed a motion under 28 U.S.C. § 2255 on December
10, 2015, arguing in part that he was denied the effective assistance of counsel at
sentencing for his attorney’s failure to challenge his status as a career offender: See
Griffin v. United States, Northern District of Iowa No. 15-2107, ECF No. 1. The
Court denied the motion. Id. The Eighth Circuit subsequently denied a certificate of
appealability. Griffin v. United States, No. 19-1088 (8th Cir. May 13, 2019).
Petitioner applied for permission to file a second § 2255 motion, but the application
was denied. Griffin v. United States, No. 19-2522 (8th Cir. Oct. 28, 2019).
In the present action, Petitioner asserts that he is entitled to § 2241 relief
because he was erroneously designated as a career offender in violation of Johnson
v. United States, 135 S. Ct. 2551 (2015) (imposing increased sentence under residual
clause of 18 U.S.C. § 924(e)(2)(B), held to violate Fifth Amendment’s guarantee of
due process); Mathis v. United States, 136 S. Ct. 2243 (2016) (defendant improperly
sentenced under 18 U.S.C.S. § 924(e), based on prior burglary convictions when
state burglary law was broader than generic burglary); United States v. Davis, 139
S. Ct. 2319 (2019) (18 U.S.C.S. § 924(c)(3)(B), creating sentencing enhancement
3

A

Case 2:19-cv-13469-DPH-RSW ECF No. 5 filed 07/31/20

PagelD.39

Page 4 of 7

;

for use of firearm during commission of felony held unconstitutionally vague); and
Sessions v. Dimaya, 138 S.Ct. 1204 (2018) (addressing constitutionality of similar
residual clause regarding the deportation of aliens under 18 U. S. C. §16).
II. Discussion
The primary mechanism for challenging the legality of a federal sentence
apart from a direct appeal is a motion to vacate, set aside, or correct the sentence
under 28 U.S.C. § 2255. United States v. Peterman, 249 F.3d 458, 461 (6th Cir.
2001). The Sixth Circuit affirmed this principle in Hill v. Masters, 836 F.3d 591 (6th
Cir. 2016), where it explained that “[a] challenge to the validity of a federal
conviction or sentence is generally brought as a habeas corpus petition pursuant to §
2255, while a petition concerning the manner or execution of a sentence is
appropriate under § 2241.” Id. at 594.
Petitioner is challenging the length of his federal sentence, as opposed to the
execution or manner in which he is serving his sentence. Therefore, he may proceed
under § 2241 only if the remedy under § 2255 “is inadequate or ineffective to test
the legality of his detention,” 28 U.S.C. § 2255(e). ‘“The circumstances in which §
2255 is inadequate and ineffective are narrow.’” Hill, 836 F.3d at 594 (quoting
Peterman, 249 F.3d at 461).
In Wright v. Spaulding, 939 F.3d 695 (6th Cir. 2019), the Sixth Circuit
clarified Hill and held that a federal prisoner cannot seek relief via a § 2241 petition
4

Case 2:19-cv-13469-DPH-RSW jEGF No. 5 filed 07/31/20

PagelD.40

Page 5 of 7

/

through the saving clause of § 2255 without showing that he had no prior reasonable
opportunity to bring his argument for relief. Id. at 705. The petitioner must show that
binding adverse precedent left him with “no reasonable opportunity” to make his
current claims any earlier, “either when he was convicted and appealed or later when
he filed a motion for postconviction relief under § 2255.” Id. at 703.
Petitioner does not meet the Wright criteria for seeking relief from his
sentence under § 2241. He has pointed to no binding adverse precedent that
prevented him from raising his claims either on direct appeal or in his § 2255
petition. Indeed, it appears he raised his current claims via an ineffective assistance
of counsel claim in his prior motion. Moreover, the case upon which Petitioner’s
claim chiefly relies, Johnson, was available to Petitioner when he filed his first
motion under § 2255. Although Mathis was decided in 2016, just after he filed his
initial motion, Petitioner filed two supplemental pleadings in which he could have
raised Mathis as a basis for relief. See Griffin v. United States, ECF Nos. 2, 3, 4, and
12. In any event, the argument that Petitioner’s prior burglary convictions did not
make him a career offender under the proper application of the categorical approach,
was an argument available to him even at the time of his direct appeal. See Taylor
v. United States, 495 U.S. 575 (1990); Finley v. Kizziah, 2019 U.S. App. LEXIS

34088, *3-4 (6th Cir. Nov. 14, 2019). Finally, neither Sessions nor Davis, also relied

5

Case 2:19-cv-13469-DPH-RSW ECF No. 5 filed 07/31/20

PagelD.41

Page 6 of 7

upon by Petitioner have any application to this case. Petitioner sentence was not
enhanced for his use of a firearm, nor was he deported.
Finally, it should be noted that the entirety of Petitioner’s argument was
undercut by Beckles v. United States, 137 S. Ct. 886, 894 (2017), where the Supreme
Court concluded that the advisory nature of the post -Booker guidelines takes the §
4B1.2 residual clause outside Johnson’s ambit.
As Petitioner has failed to satisfy the conditions set forth in Wright, he may
not maintain this action under § 2241.
III. Conclusion
For the reasons given above, the Court summarily denies the petition for writ
of habeas corpus. The Court grants the Application to Proceed Without Prepaying
Fees and Costs (ECF No. 2) even though it appears Petitioner had the ability to pay
the $5.00 fee based on an unsigned certificate of account activity. However, the
Court denies leave to appeal this decision in forma pauperis because an appeal would
lack merit and could not be taken in good faith. 28 U.S.C. § 1915(a)(3).
Finally, Petitioner is not required to apply for a certificate of appealability if
he attempts to appeal this decision because “the statutory language imposing the
certificate-of-appealability requirement clearly does not extend to cases where . . .
detention arose out of federal process but the proceeding is not under § 2255.”

6

r.-

Case 2:19-cv-13469-DPH-RSW ECF No. 5 filed 07/31/20

PagelD.42

Page 7 of 7

Witham v. United States, 355 F.3d 501, 504 (6th Cir. 2004).
IT IS SO ORDERED.

s/Denise Page Hood___________
Hon. Denise Page Hood
Chief United States District Judge
Dated: July 31, 2020

7

